OIG Investigative Reports, Buffalo, NY., September 16, 2011 - Woman Sentenced on Fraud Charge
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Juctice
United States Attorney William J. Hochul, Jr.
Western District of New York
FOR IMMEDIATE RELEASE
SEPTEMBER 16, 2011
www.usdoj.gov/usao/nyw
CONTACT:  BARBARA BURNS
PHONE: (716) 843-5817
FAX: (716) 551-3051
WOMAN SENTENCED ON FRAUD CHARGE
Buffalo, N.Y.-- U.S. Attorney William J. Hochul, Jr. announced today that Jacquelyn
Wilson, 39, of Amherst, New York, who was convicted of providing false information to the
U.S. Department of Education when applying for students loans, was sentenced today to two
years probation and ordered to pay restitution in the amount of $61, 670.00 by United States
Magistrate Judge Hugh B. Scott.
Assistant U.S. Attorney Trini E. Ross, who handled the case, stated that between 1996
and 2007, the defendant used her spouse’s social security number to obtain federal financial
education loans.
The sentencing is the culmination of an investigation on the part of Special Agents of the
Department of Education, Office of Inspector General and the Social Security Administration
Office of Inspector General, under the direction of Special Agent in Charge Edward J. Ryan.
# # # #
Top
Printable view
Last Modified: 11/14/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov